IN THE SUPREME COURT OF THE UNITED STATES
No. 21-217
Marcy Britton,
Petitioner,
Mayor Tim Keller, Danny Nevarez, and City of
Albuquerque,
Respondents.

CERTIFICATE OF SERVICE

I, Kevin A. Morrow, counsel for Mayor Tim Keller, Danny Nevarez, and City of
Albuquerque, hereby certify that on this 15th day of October, 2021, I caused one copy
of the Brief of Respondents in Opposition to be served via electronic mail on the
following counsel:
WESTERN AGGRICULTURE, RESPURCE.
AND BUSINESS ADVOCATES, LLP
A. Blair Dunn, Esq.
400 Gold Ave. SW, Ste. 1000
Albuquerque, NM 87102

505) 750-3060
abdunn@ablairdunn-esg.com

Attorney for Petitioner
I further certify that all parties required to be served have been served.

LJ~
Kevin A. Morrow
Deputy City Attorney
PO Box 2248
Albuquerque, NM 87103
(505) 768-4500
kmorrow@cabg.gov

Attorney for Respondents

